HHS/OIG, Audit - "Medicaid Payments for Services Provided to
Beneficiaries With Concurrent Eligibility in Kansas and Missouri for July 1,
2005, Through June 30, 2006," (A-07-07-04079)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for Services
Provided to Beneficiaries With Concurrent Eligibility in Kansas and Missouri for
July 1, 2005, Through June 30, 2006," (A-07-07-04079)
February 7, 2008
Complete Text of Report is available in PDF format (1.52 mb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review
was to determine whether the Kansas State agency made payments on behalf of
beneficiaries who should not have been Medicaid-eligible due to their
eligibility in Missouri.  For the period of July 1, 2005,
through June 30, 2006, we estimate that the State agency paid $113,887 ($68,970
Federal share) on behalf of beneficiaries who should not have been eligible due
to their Medicaid eligibility in Missouri.  We attribute the Medicaid
payments made on behalf of beneficiaries who were not eligible in Kansas to the
insufficient sharing of eligibility data between the State agency and Missouris
Medicaid agency.
We recommend that the State agency work with the Missouri
Medicaid agency to share available Medicaid eligibility information for use in
(1) determining accurate beneficiary eligibility status and (2) reducing the
amount of payments, estimated to be $113,887 ($68,970 Federal share), made on
behalf of beneficiaries residing in Missouri.  The State agency concurred with
our recommendations.